APPENDIX
APPENDIX A
Six Circuit Court of Appeals MANDATE Document [37], Filed on 03/30/20
........................................................................................................App. 1

•

•

•

•

•

APPENDIX B
Sixth Circuit Court of Appeals Denial of Rehearing Mandate 03/20/2020
......................................................................................................... App. 2
APPENDIX C
Sixth Circuit Court of Appeals Order Filed on 09/27/2019
App. 3
APPENDIX D
U. S. District Court Western District of TN Court Order JUDGMENT
Filed on 05/21/2018
App. 4
APPENDIX E
U. S. District Court District Court’s Report and Recommendation File on
05/21/2018
App. 5
APPENDIX F
United States Supreme Court Order Extension {150 days} of time to file a writ of
certiorari, pursuant to Corvid-19. 03/19/20 and, 04/15/20.
App. 6

APPENDIX H
* The United States Supreme Court Office of the Clerk, Letter dated
September 28, 2020 instruction to correct, re-file petition within 60 days notice
Pursuant to Rule 14.1 and 14.5, 29.3
.App. 7

32

Case: 18-5746

Document: 37

Filed: 03/30/2020

Page: 2

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No: 18-5746

Filed: March 30, 2020
ANTHONY T. GROSE, SR.
Plaintiff - Appellant
v.
STEVEN TERNER MNUCHIN, Secretary of the United States Department of the Treasury
Defendant - Appellee

MANDATE
Pursuant to the court's disposition that was filed 09/27/2019 the mandate for this case hereby
issues today.

COSTS: None

ft

x' A
(h)

Case: 18-5746

Document: 36-1

Filed: 03/20/2020

Page: 1

(1 of 2)

No. 18-5746

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Mar 20, 2020
DEBORAH S. HUNT, Clerk

ANTHONY T. GROSE, SR.
Plaintiff-Appellant,
v.
STEVEN TERNER MNUCHIN, SECRETARY OF THE UNITED
STATES DEPARTMENT OF THE TREASURY,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: ROGERS, WHITE, and STRANCH, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

//PPfyJO?* &
fice

Case: 18-5746

Document: 36-2

Filed: 03/20/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: March 20, 2020

Mr. Anthony T. Grose Sr.
4192 Sable Drive
Memphis, TN 38128
Re: Case No. 18-5746, Anthony Grose, Sr. v. Steven Mnuchin
Originating Case No.: 2:16-cv-02043
Dear Mr. Grose,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Ms. Monica M. Simmons-Jones
Enclosure .

(2 of 2)

■ I

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: September 27, 2019

Mr. Anthony T. Grose Sr.
4192 Sable Drive
Memphis, TN 38128
Ms. Monica M. Simmons-Jones
Office of the U.S. Attorney
Western District of Tennessee
167 N. Main Street
Suite 800
Memphis, TN 38103
Re: Case No. 18-5746, Anthony Grose, Sr. v. Steven Mnuchin
Originating Case No.: 2:16-cv-02043
Mr. Grose and Counsel,
The Court issued the enclosed order today in this case.
Sincerely yours,
s/Cheryl Borkowski
Case Manager
Direct Dial No. 513-564-7035
cc: Mr. Thomas M. Gould
Enclosure
Mandate to issue

J^lP P ^ y £

NOT RECOMMENDED FOR FTJT T -TEXT PT JRTICATTON
No. 18-5746
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ANTHONY T. GROSE;, SR.,

)
)
)
)

Plaintiff-Appellimt,
v.
STEVEN TERNER MNUCHIN, Secretary of the
United States Department of the Treasury,
I

Defendant-Appellee.

)
)
)
)

FILED

Sep 27, 2019
DEBORAH S. HUNT, Clerk

.

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
TENNESSEE

)
)
)

ORDER
Before.: ROGERS, WHITE, and STRANCH, Circuit Judges.

Anthony T. Grose, Sr., proceeding pro se, appeals a district court judgment dismissing his
employment discrimination action filed pursuant to Title VII of the Civil Rights Act of 1964, 42
U.S.C. § 2000e-16; the Age Discrimination in Employment Act (ADEA), 29 U.S.C. § 623; the
Rehabilitation Act (RA), 29 U.S.C. § 794(a); and the Americans with Disabilities Act (ADA), 42
U.S.C. § 12112(a). This case has been referred to a panel of the court that, upon examination,
unanimously agrees that Dral argument is not needed. See Fed. R. App. P. 34(a).
Grose filed a complaint against the Secretary of the United States Department of the
Treasury (Secretary), alleging employment discrimination.

A magistrate judge granted the

Secretary’s motion for a more definite statement and Grose’s motion to amend and supplement his
pleadings, and denied the Secretary’s motion to dismiss the complaint for failure to state a claim
for relief. In an amendec. complaint filed against the Secretary, Grose asserted that he began his
employment with the Internal Revenue Service (IRS) in 1998. He asserted that he “is an African-

($)

No. 18-5746
-2Amencaa, Light complexion male” who is over the age of forty and “suffers from myopia and
presbyopia,... physical impairments] that substantially limit[] his vision.” He received a “Fully
Successful” performance appraisal for the review period of July 1, 2004 to June 30, 2005. But
after he participated in Equal Employment Opportunity (EEO) activity in 2005, he received “a
failing appraisal” in his performance reviews.
Grose asserted that his optometrist, Dr. Leroy Norton, Jr., opined that he suffered eye strain
due to co mputer use, completed the documentation necessary to support his request for reasonable
accommodation of “two flat screen monitors and a document magnification system,” and
recommended bifocal eyeglasses. The IRS denied Grose's request for reasonable accommodation
and his request for reconsideration.

Grose submitted a second request for reconsideration
supported! with documentation from optometrist Dr. Ira Davis, Jr., who opined that Grose “suffered
from ‘corjiputer vision syndrome’ (CVS).”

Grose indicated that CVS caused various iissues
including blurry vision, nausea, and “slow refocusing” but that “his prescribed bifocals did correct
the impairment to his vision.” Grose resigned from his position at the IRS due to “retaliation,
harassments, [and] hostile work conditions.”
Gr Dse asserted that he was discriminated against during his employment on the bases of
retaliation for participating in EEO activity (count I); “disability (vision)” (counts II and V); age
(count III) ; and gender (count IV). He sought declaratory and monetary relief.
The Secretary filed a Federal Rule of Civil Procedure 12(b)(6) motion to dismiss for failure
to state a claim on which relief may be granted or, in the alternative, a Federal Rule of Civil
Procedure 56(a) motion for summary judgment. Grose filed a response in opposition to the
Secretary’^ motion and alternatively sought summary judgment under Rule 56(a). The magistrate
judge recommended granting the Secretary’s motion and dismissing Grose’s Title VII and ADEA
claims und er Rule 12(b)(5) as barred by res judicata and dismissing his ADA and RA claims under
Rule 56(a) Over Grose’s objections, the district court adopted the magistrate judge’s report and
recommendation, granted the Secretary’s motion to dismiss and for summary judgment, and
dismissed Grose’s case. Grose filed a timely appeal and requests oral argument in his appellate
brief. He has also filed motions to provide a digital CD of a telephone message recording” from

No. 18-5746
-3 -

the district court clerk to him concerning a motion hearing recording, and to reconsider the denial
of his “motion to compel” production of the same motion hearing recording.
L MOTION TO DISMISS
We review de novo a district court’s dismissal of a complaint under Rule 12(b)(6) for
failure to state a claim for relief. Shuler v. Garrett, 743 F.3d 170, 172 (6th Cir. 2014).
Grose challenges the district court’s dismissal of his Title VII and ADEA claims. The
district court concluded that Grose’s Title VII and ADEA claims were barred by res judicata. The
Secretary contends that Grose has waived appellate review of the district court’s decision in that
regard by failing to “directly address the res judicata issue” in the argument portion of his appellate
brief.

It is true that the argument portion of Grose’s appellate brief lacks any meaningful

discussion of the dismissal of his Title VII and ADEA claims on res judicata grounds. However,
as noted by the Secretary, Grose does discuss the res judicata issue, and challenge the district
court’s dismissal of his Title VII and ADEA claims on that basis, in the summary of argument
portion of his appellate brief. Thus, in light of the liberal construction afforded to pro se pleadings,
see Martin v. Overton, 391 F.3d 710, 712 (6th Cir. 2004), we opt to address the dismissal of
Grose’s Title VII and ADEA claims on res judicata grounds.
Res judicata bars a subsequent action between the same “parties or their privies” based on
the same claims or causes of action “that were or could have been raised” in a prior action that was
resolved “on the merits.” FederatedDep’t Stores, Inc. v. Moitie, 452 U.S. 394, 398 (1981). It
encompasses both issue preclusion, which precludes relitigation of issues that were raised and
resolved in a prior action, and claim preclusion, which precludes litigation of issues that should
have been raised in a prior action but were not. Migra v. Warren City Sch. Dist. Bd. ofEduc., 465
U.S. 75, 77 n.l (1984). Res judicata applies when there is: “(1) a final decision on the merits by
a court of competent jurisdiction; (2) a subsequent action between the same parties or their privies;
(3) an issue in the subsequent action which was litigated or which should have been litigated in
the prior action; and (4) an identity of the causes of action.” Rawe v. Liberty Mut. Fire Ins., 462
F.3d 521, 528 (6th Cir. 2006) (quoting Kane v. Magna Mixer Co., 71 F.3d 555, 560 (6th Cir.

No. 18-5746
-4-

1995)). The “district court’s application of the doctrine of res judicata” is reviewed de novo.
Bragg v. Flint Bd. ofEduc., 570 F.3d 775, 776 (6th Cir. 2009).
In 2011, Grose filed an employment discrimination action against the Secretary, asserting
hostile work environment, retaliation, constructive discharge, and discrimination based on race,
gender, age, disabled-veteran status, and participation in protected activity. See Grose v. Lew, No.
15-5357, slip op. at 1 (6th Cir. Sept. 21, 2016) (unpublished). His claims were raised under Title
VII, the ADEA, and the RA. Id. The district court concluded that Grose’s claims were the subject
of three EEO complaints and that Grose exhausted his administrative remedies as to the claims
raised in one complaint (08-0166), but not the other two (06-0847, 07-1159). Id, slip op. at 3.
Consequently, the district court dismissed Grose’s Title VII and ADEA claims arising from the
unexhausted EEO complaints for failure to exhaust administrative remedies, which left a claim
based on non-selection for a vacant position. Id., slip op. at 3-4. The district court subsequently
granted the Secretary’s motion for summary judgment as to the non-selection claim and entered
judgment in favor of the Secretary. Id. We affirmed. Id., slip op. at 11.
The claims asserted in Grose’s current complaint were the subject of another EEO
complaint (07-0853). That complaint asserted discrimination on the bases of race, age, gender,
and color, retaliation, and hostile work environment due to his participation in protected activity.
The allegations in EEO complaint 07-0853 are the same as the allegations asserted in EEO
complaint 07-1159.
Grose’s current claims brought under Title VII and the ADEA are not barred by res judicata
because those claims were not adjudicated on the merits in the prior action. See id., slip op. at 3,
5. Instead, those claims were dismissed for failure to exhaust administrative remedies, which is
not considered a ruling on the merits for res judicata purposes. See Pearson v. Int 7 Union, United
Auto., Aerospace & Agric. Implement Workers Local 140, 99 F. App’x 46, 54-55 (6th Cir. 2004);
Smith v. Ky. State Univ., 97 F. App’x 22, 26 (6th Cir. 2004). Although Grose’s Title VII and
ADEA claims were erroneously dismissed under Rule 12(b)(6) for failure to state a claim for relief,
we may affirm their dismissal “for any reason supported by the record, including on grounds
different from those on which the district court relied.” Stein v. Regions Morgan Keegan Select

No. 18-5746
-5High Income Fund, Inc., 821 F.3d 780, 786 (6th Cir. 2016). Because the Secretary moved, in the
alternative, for summary judgment under Rule 56(a), this Court may affirm the district court’s
dismissal of Grose’s Title VII and ADEA claims if the record shows that there were no genuine
disputes as to any material fact and the Secretary was entitled to judgment as a matter of law on
these claims. Fed. R. Civ. P. 56(a).
Grose asserted that he was subjected to retaliation for participating in EEO activity “[i]n
late 2005” when
1) on August 16,2006, he was placed on an employment plan (EIP); 2) on June 22,
2007, he received a lowered annual performance appraisal for the period ending
May 31, 2007; 3) on July 31, 2007, management denied his reasonable
accommodations request and, 4) on October 3, 2007, management denied his
subsequent request for reconsideration of a reasonable accommodations request;
and 5) on August 3, 2007, he was subjected to a humiliating and degrading training
plan.
He also asserted discrimination on account of his age and gender.
To establish a discrimination claim under Title VII or the ADEA, a plaintiff must present
either direct evidence of discrimination or circumstantial evidence permitting an inference of
discriminatory treatment. Geiger v. Tower Auto., 579 F.3d 614, 622 (6th Cir. 2009) (ADEA);
Carter v. Univ. of Toledo, 349 F.3d 269, 272-73 (6th Cir. 2003) (Title VII). Where, as here, there
is no direct evidence of discrimination, the claim must be evaluated using the burden-shifting
approach established in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802-04 (1973), and
later refined by Texas Department of Community Affairs v. Burdine, 450 U.S. 248, 252-53 (1981).
Geiger, 579 F.3d at 622; Carter, 349 F.3d at 273. Under the McDonnell Douglas framework, the
plaintiff bears the initial burden of establishing a prima facie case of discrimination. Carter, 349
F.3d at 273.

The establishment of a prima facie case creates a rebuttable presumption of

discrimination, requiring the defendant to provide “a legitimate, nondiscriminatory reason” for
taking the action being challenged. Id. If the defendant satisfies this burden, the plaintiff must
then establish by a preponderance of the evidence that the proffered reason is, in fact, a pretext for
unlawful discrimination. Burdine, 450 U.S. at 253; McDonnell Douglas, 411 U.S. at 804. “[T]he

No. 18-5746
-6burden of proof always remains with the plaintiff.” Hartsel v. Keys, 87 F.3d 795, 800 (6th Cir.
1996).
To establish a prima facie case of retaliation, a plaintiff must show that: (1) he engaged in
protected activity; (2) his employer knew of the protected activity; (3) he was subjected to an
adverse employment action; and (4) the adverse action was causally related to the protected
activity. Hubbell v. FedEx SmartPost, Inc., 933 F.3d 558, 568 (6th Cir. 2019). A plaintiff
establishes a prima facie case of age discrimination under the ADEA by showing that: “(1) he is
a member of the protected class—i.e. he is at least forty years of age; (2) he was subjected to an
adverse employment action; (3) he was qualified for the position; and (4) he was treated differently
from similarly situated employees outside the protected class.” Hughey v. CVS Caremark Corp.,
629 F. App’x 648, 651 (6th Cir. 2015) (citing Mitchell v. Vanderbilt Univ., 389 F.3d 177, 181 (6th
Cir. 2004)). A plaintiff can establish a prima facie case of gender discrimination under Title VII
by showing that (1) he is a member of a protected class; (2) he was qualified for the job and
satisfactorily performed it; (3) [he] suffered an adverse employment action; and (4) others,
similarly situated and outside the protected class, were treated differently. Redlin v. Grosse Pointe
Pub. Sch. Sys., 921 F.3d 599, 607 (6th Cir. 2019).
Even assuming that Grose could establish prima facie cases of retaliation and age and
gender discrimination based on his placement on an EIP, lowered performance appraisal, denial
of a reasonable accommodation request and reconsideration of that denial, and placement on a
training plan, he did not show that the Secretary’s reasons for taking those employment actions
were pretextual. An employee can establish pretext by demonstrating “(1) that the proffered
reasons had no basis in fact, (2) that the proffered reasons did not actually motivate [the
employment action], or (3) that they were insufficient to motivate [the employment action].”
Blizzard v. Marion Tech. Coll., 698 F.3d 275, 285 (6th Cir. 2012) (quoting Chattman v. Toho
TenaxAm., Inc., 686 F.3d 339, 349 (6th Cir. 2012)).
Grose’s supervisor, Mary Banks, testified that she placed him on an EIP due to a decline
in his performance between his midyear and annual reviews.

The EIP provided Grose an

opportunity to identify his weaknesses and improve his job performance. Grose received a lower

No. 18-5746
-7annual performance appraisal for the period ending on May 31, 2007, because he received
unsatisfactory ratings in the sub-categories of customer accuracy, compliance communication, and
accuracy of input. His overall ratings in the broader categories of which those sub-categories were
included were “minimally successful.” Banks’s ratings were supported by her personal knowledge
of Grose’s work and her review of a computer program that reviews employee calls for quality.
Department Manager Jacquelyne Yarbrough denied Grose’s request for reasonable
accommodation. Yarbrough’s denial was based on a medical assessment prepared by Dr. James
W. Allen, who opined that Grose had “no substantial limitations of a major life activity.” Grose’s
request for reconsideration was denied by Operations Manager Carolyn J. Jackson because he did
not submit “any additional medical documentation” for consideration. Grose’s second request for
reconsideration to which he did attach medical documentation was denied because in reviewing
Grose’s medical records, Dr. Allen found that Grose “has normal 20/20 visual acuity” when
wearing bifocal glasses, making a reasonable accommodation unnecessary.
Banks approved Grose’s request for training. Yarbrough confirmed that an agreement
regarding training had been reached in a written memorandum dated August 3, 2007. The goal of
the training was to improve Grose’s overall performance and provided for three days of training
with management evaluation of his work “for 30 days” to assess improvement. Yarbrough testified
that, prior to the training, she suggested that an assessment be completed “to determine what
training [Grose] needed” because he did not specify the areas in which he needed training. The
assessment and three-day training were successfully completed.
Grose did not establish pretext by showing that the reasons proffered for the employment
actions at issue lacked a factual basis, or did not actually, or were insufficient, to motivate the
actions at issue. See Blizzard, 698 F.3d at 285. Because Grose’s retaliation, gender, and age
discrimination claims could not survive the Secretary’s motion for summary judgment, we affirm
the district court’s dismissal of these claims on alternative grounds.
II. MOTION FOR SUMMARY JUDGMENT
We review de novo the “district court’s grant of summary judgment.” Watson v. Cartee,
817 F.3d 299, 302 (6th Cir. 2016). Summary judgment is proper when the evidence presented

No. 18-5746
-8shows “that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). “A fact is material if it ‘might affect the
outcome of the suit under the governing law[,]’ and a dispute about a material fact is genuine ‘if
the evidence is such that a reasonable jury could return a verdict for the nonmoving party.’”
McKay v. Federspiel, 823 F.3d 862, 866 (6th Cir. 2016) (alteration in original) (quoting Anderson
v. Liberty Lobby, Inc., All U.S. 242,248 (1986)).
The district court properly granted summary judgment in favor of the Secretary as to
Grose’s ADA and RA claims based on his vision impairments. First, Grose’s ADA claim failed
because the RA “constitutes the exclusive remedy for a federal employee alleging disability-based
discrimination.” Jones v. Potter, 488 F.3d 397, 403 (6th Cir. 2007).
Second, Grose’s RA claim failed because he did not establish that he was disabled. A
plaintiff alleging disability discrimination, must establish that he is disabled within the meaning
of the ADA. Id. at 403. “[Ejmployment discrimination complaints under the [RA] are governed
by the standards of the [ADA].” Mitchell v. U.S. Postal Serv., 738 F. App’x 838, 843 (6th Cir.
2018) (first alteration in original) (quoting Spence v. Donahoe, 515 F. App’x 561, 568 (6th Cir.
2013)); see 29 U.S.C. § 794(d).

A “disability” is a “physical or mental impairment that

substantially limits one or more of the major life activities of such individual,” a “record of such
an impairment,” or being “regarded as having such an impairment.” 29 C.F.R. § 1614.203(2); 29
C.F.R. § 1630.2(g). Seeing is considered a major life activity. 29 C.F.R. § 1630.2(i)(l)(i); 29
U.S.C. § 705(20)(B).

Generally, a disability determination is made “without regard to the

ameliorative effects of mitigating measures.” 42 U.S.C. § 12102(4)(E)(i). However, with respect
to individuals with vision impairments, “[t]he ameliorative effects of the mitigating measures of
ordinary eyeglasses or contact lenses” is taken into consideration when assessing disability. 42
U.S.C. § 12102(4)(E)(ii); see Sutton v. United Air Lines, Inc., 527 U.S. 471, 487 (1999) (finding
that “disabled” is “restricted to only those whose impairments are not mitigated by corrective
measures” such as eyeglasses and contact lenses); Verhoff v. Time Warner Cable, Inc., 299 F.
App’x 488, 494 n.5 (6th Cir. 2008) (“However, while Congress overturned the Supreme Court’s
reasoning in Sutton, it nevertheless left its holding intact by ordering courts to consider the

No. 18-5746
-9‘ameliorative effects of the mitigating measures of ordinary eyeglasses or contact lenses.’”
(quoting 42 U.S.C. § 12102(4)(E)(ii))).
Grose did not demonstrate that he is disabled within the meaning of the RA. Grose’s
treating optometrists opined that his vision impairments could be corrected with bifocal eyeglasses.
Norton recommended that Grose wear bifocal lenses “full time,” and Davis reported that Grose
has normal 20/20 visual acuity when refracted at both near and far distances” when wearing
bifocal eyeglasses. Dr. James W. Allen, an independent medical examiner, reviewed reports from
Norton and Davis and also spoke with both doctors directly. Allen opined that a reasonable
accommodation was not necessary because Grose had “no substantial limitations of a major life
activity.” Allen further opined that other options were available for correcting Grose’s vision
impairments such as computer glasses,” computer “software that will enlarge specific text,” and
an ergonomic survey of his office. Because Grose did not demonstrate that he is disabled within
the meaning of the RA, his RA claim could not survive the Secretary’s motion for summary
judgment.
III. REMAINING ARGUMENTS IN APPELLATE BRIEF
Grose s appellate brief lists ten issues for review. But his brief contains only six issues in
the argument portion. To the extent that the issues for review are not properly briefed in either the
summary of argument or argument portions of Grose’s appellate brief, they are deemed abandoned.
The “an appellant’s failure to raise an argument in [an] appellant brief forfeits that issue on
appeal.” United States v. White, 920 F.3d 1109, 1114 (6th Cir. 2019).
IV. MOTIONS
Grose has filed a motion “to provide a digital CD of a telephone message recording” from
the district court clerk as proof that a motion hearing conducted on November 30, 2017 before the
magistrate judge was recorded. He also moves for reconsideration of the district court’s effective
denial of his motion to compel production of the same motion hearing recording. The magistrate
judge held a hearing on November 30, 2017, regarding discovery motions that Grose had filed.
Grose filed motions requesting a copy of the recording of that hearing. The district court denied
Grose’s motions and informed him that he could request a copy of the recording in accordance

No. 18-5746
-10with the court’s local rules, administrative orders, and electronic case filing policies and
procedures. Grose filed several additional motions requesting the same recording, and he paid the
fee required for two CD copies of the recording to the district court clerk. Grose also filed a motion
to compel production of a CD of the recording, which the district court effectively denied.
In response to Grose’s motions, the district court ordered the court clerk to refund the fee
that Grose had paid for the recording. The district court found that court staff had diligently
searched for the recording but that it could not be located and that “Court staff discovered that the
Magistrate Court did not record the hearing on November 30, 2017.”
Grose contends that the district court clerk left him a voicemail message indicating that the
motion hearing at issue was recorded, which confirms his claim that the recording exists and
contradicts the district court’s finding that the hearing was not recorded. However, the discovery
motions addressed at the motion hearing at issue concerned Grose’s requests to file certain
documents under seal as exhibits to his summary-judgment motion, and Grose has failed to show
that those motions have any bearing on the issues on appeal. Thus, whether or not the motion
hearing at issue was recorded, Grose’s motions are denied.
Accordingly, Grose’s request for oral argument and pending motions are DENIED, and
the district court’s judgment is AFFIRMED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:16-cv-02043-TLP-cgc Document 83 Filed 05/21/18 Page 1 of 2

PagelD 2910

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION

ANTHONY T. GROSE, SR.,

)
)
)
)
)
)

Plaintiff,
v.
STEVEN T. MNUCHIN, Secretary of the
United States Department of the Treasury,
Defendant.

)

No. 2:16-cv-02043-TLP-cgc

JURY DEMAND

)
)
)
)

JUDGMENT

JUDGMENT BY COURT. This action is before the Court on pro se Plaintiff Anthony Grose,
Sr.’s (“Plaintiff’) Amended Complaint, filed on May 31, 2016. (ECF No. 24.) In accordance
with the Order Adopting the Report and Recommendation and Granting Defendant’s Motion to
Dismiss or, in the Alternative, Motion for Summary Judgment, entered on May 21, 2018 (ECF
No. 82),
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that judgment is entered
in favor of Defendant Steven T. Mnuchin, Secretary of the United States Department of
Treasury (“Defendant”), and Plaintiffs claims are DISMISSED WITH PREJUDICE.

0

Case 2:16-cv-02043-TLP-cgc Document 83 Filed 05/21/18 Page 2 of 2

APPROVED:
s/ Thomas L. Parker
THOMAS L. PARKER
UNITED STATES DISTRICT JUDGE

May 21, 2018
Date

-

2

PagelD 2911

Filed 05/21/18 Page 1 of 12

Case 2:16-cv-02043-TLP-cgc Document 82

PagelD 2898

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION

ANTHONY T. GROSE, SR.
Plaintiff,
v.
STEVEN T. MNUCHIN, Secretary of the
United States Department of the Treasury,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

No. 2:16-cv-02')43-TLP-cgc

JURY DEMAND

SUMMARY JUGMENT

Under Western District of Tennessee

Administrative Order 2013-05, the Magistrate

Court considered Defendant’s Motion to Dismiss or

for Summary Judgment and issued a Report

and Recommendation (“R&R”). (ECF No. 74 at PagelD 2827.) The R&R recommends “that
Defendant’s

Motion for Snmmaty Judgment be GRANTED.” (Id.) Plaintiff Anthony T. Grose,

Sr. (“Plaintiff’ or
Steven T.

“Mr. Grose”) timely objected to the R&R, (ECF No. 78), and Defendant

Mnuchin, Secretary of the United States Department of the Treasury (“Defendant,” or

“Secretary of Treasury”)1 responded to the objections. (ECF No. 79.)
For the following reasons, the Report and Recommendation is ADOPTED. Accordingly,
Defendant’s Motion to Dismiss or, in the Alternative, Motion for Summary Judgment is
GRANTED, and Plaintiffs claims are DISMISSED WITH PREJUDICE.

1 This case was originally styled Anthony T. Grose, Sr. v. Jacob J. Lew, with the then-acting
Secretary of Treasury listed as the party Defendant.

£

Ic'tUflA'P'? (H) C5-)

Case 2:16-cv-02043-TLP-cgc Document 82 Filed 05/21/18 Page 2 of 12

PagelD 2899

STANDARD OF REVIEW
The following standards of review apply in this matter.
I.

De novo Review of the R&R
When reviewing a Report and Recommendation from the Magistrate Court,
of the
[a] judge of the court shall make a de novo determination of tho se portions
...
report or specified proposed findings or recommendations to which objection is
made. A judge of the court may accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate judge. The judge may also
receive further evidence or recommit the matter to the magistrate judge with
instructions.

28 U.S.C. § 636(b); accord Fed. R. Civ. P. 72(b)(3). After conducting a de novo review, a
district court is not required to articulate all of the reasons it rejects a party’s objections. Tuggle
v. Seabold, 806 F.2d 87, 92 (6th Cir. 1986).
II.

The Standard for a Rule 12(b)(6) Motion to Dismiss
Federal Rule of Civil Procedure 8(a)(2) requires that a complaint contain a short and

plain statement of the claim showing that the pleader is entitled to relief.” Although this
standard does not require “detailed factual allegations,

it requires more than “labels and

conclusions” or “a formulaic recitation of the elements of a cause of action” Ashcroft v. Iqbal,
556 U.S. 662, 681 (2009); BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007).
A motion to dismiss under Fed. R. Civ. P. 12(b)(6) tests the sufficiency of the
complaint’s allegations by arguing that the allegations establish no claim for which relief can be
granted.

A court considering a motion to dismiss under Rule 12(d)(6) must “construe the

complaint in the light most favorable to the plaintiff, accept its allegalions as true, and draw all
reasonable inferences in favor of the plaintiff.” DIRECTV, Inc. v. Treech, 487 F.3d 471, 476 (6th
Cir. 2007). A court need not accept as true legal conclusions or unwarranted factual inferences.

2

Case 2:16-cv-02043-TLP-cgc Document 82 Filed 05/21/18 Page 3 of 12

Hananiya v.

PagelD 2900

City ofMemphis, 252 F. Supp. 2d 607, 610 (W.D. Tern. 2003) (citing Lewis v. ACB

Business Servs., Inc., 135 F.3d 389,405 (6th Cir. 1998)).
To survive a Motion to Dismiss, the complaint has to assert more than labels,
conclusions, and formulaic recitations of the claim s elements. Sensations, Inc. v. City of Grand
Rapids, 526 F.3d 291, 295 (6th Cir. 2008) (citing Twombly, 550 U.S. at 555). “‘[A] complaint
must contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on

its face.”’ Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at 570).

Conclusory statements are not assumed to be true. Id. at 678-79.
III.

The Summary Judgment Standard
“The court shall grant summary judgment if the movant shows that there is no genuine

dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); see also Chapman v. UAWLocal 1005, 670 F.3d 677, 680 (6th Cir. 2012). “A
fact is material for purposes of summary judgment if proof of that fact would establish or refute
an essential element of the cause of action or defense.” Bruederle v. Louisville Metro Gov’t, 687
F.3d 771,

776 (6th Cir. 2012) (internal quotation marks omitted). “A dispute over material facts

is ‘genuine’ ‘if the evidence is such that a reasonable jury could return a verdict for the
nonmoving party.

Id. (quoting Anderson v. Liberty Lobby, Inc., 417 U.S. 242, 248 (1986)).

“When the non-moving party fails to make a sufficient showing of an essential element of his
entitled to judgment as a
case on which he bears the burden of proof, the moving parties are
matter of law and summary judgment is proper.” Chapman, 670 F.Sd at 680 (citing Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986)); accord Kalich v. AT & T Mobility, LLC, 679 F.3d
464, 469 (6th Cir. 2012).

3

Case 2:16-cv-02043-TLP-cgc Document 82

“The movin

Filed 05/21/18 Page 4 of 12

PagelD 2901

g party bears the initial burden of demonstrating the absence of any genuine

Barnhardt, 679 F.3d 443, 448 (6th Cir. 2012) (citing
issue of material fact.” Mosholder v.
Celotex Corp., All U.S. at 323). “Once the moving party satisfies its initial burden, the burden
shifts to the nonmoving party to set forth specific facts showing a triable: issue of material fact.”
Id. at 448-49 (citing Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986)).
To show that a fact is, or is not, genuinely disputed, both partus are required to either
“cite[] to particular parts of materials

in the record” or “show[] that tie materials cited do not

establish the absence or presence of a genuine dispute, or that an adverse party cannot produce
admissible evidence to support the fact ” Brueierle, 687 F.3d a. 776 (alterations in original)
(quoting Fed. R. Civ. P. 56(c)(1)), see

also Mosholder, 679 F.3d at 448 (“To support its motion,

absence of evidence to support the nonmovmg
the moving party may show ‘that there is an
party’s case.’” (quoting Celotex Corp., All U.S. at 325)).
“The court need consider only the cited materials, but it may consider other materials in
the record.” Fed. R. Civ. P. 56(c)(3); .see also Emerson v.

Novartis Pharm. Corp., 446 F. App’x

733, 736 (6th Cir. 2011) (“‘[J]udges are not like pigs, hunting for trufflt s' that might be buried m
the record.”); Chi. Title Ins. Corp. v.

Magnuson, 487 F.3d 985, 995 (6th Cir. 2007) (“A district

court is not required to ‘search the entire record to establish that it is bereft of a genuine issue of
material fact.’”).
“In considering a motion for summary judgment, [a court] must draw all reasonable
inferences in favor of the nonmoving party.

Phelps v. State Farm Mut. Auto. Ins. Co., 680 F.3d

725, 730 (6th Cir. 2012) (citing Matsushita, 475 U.S. at 587). “The central issue is ‘whether the
or whether it is so
evidence presents a sufficient disagreement to require submission to a jury

4

Case 2:16-cv-02043-TLP-cgc Document 82 Filed 05/21/18 Page 5 of 12

PagelD 2902

one-sided that one party must prevail as a matter of law.’” Id. (quoting Anderson, 477 U.S. at
251-52).

“[A] mere ‘scintilla’ of evidence in support of the non-moving party’s position is

insufficient to defeat summary judgment; rather, the non-moving party must present evidence
upon which a reasonable jury could find in her favor.” Tingle v. Arbors at Hilliard., 692 F.3d
523, 529 (6th Cir. 2012) (quoting Anderson, All U.S. at 252).
ANALYSIS
Plaintiffs pro sc Amended Complaint (ECF No. 24) alleges violations of Title VII of the
Civil Rights Act of 1964, 42 U.S.C. § 2000(e), et seq. (“Title VII”), the Age Discrimination in
Employment Act of 1967, 29 U.S.C. § 621, et seq. (“ADEA”), Sections 501 and 504 of the
Rehabilitation Act of 1973, 29 U.S.C. §§ 701, et seq., 791, et seq. (“Rehabilitation Act”), and the
Americans with Disabilities Act of 1990, 42 U.S.C. § 12191, et seq. (“ADA”). Plaintiff alleges
that Defendant, his former employer, discriminated against him on the tasis of his alleged vision
disability (Counts II and V), age (Count III), and gender, race, and color (Count IV). (ECF No.
24.)
Plaintiff further alleges that Defendant violated Title VII by retaliating against him for
taking part

in Equal Employment Opportunity (“EEO”) activity (Count I), on the following

instances: (1) on August 16, 2006, he was placed on an employment improvement plain (“EIP”);
(2) on

June 22, 2007, he received a lower annual performance rating for the period ending on

May 31, 2007; (3) on July 31, 2007, management denied his request for reconsideration of an
accommodation request; (4) on October 3, 2007, management denied his subsequent request for
reconsideration of a reasonable accommodations request; and (5) on August 3, 2007, he was
subjected to a “humiliating and degrading training plain.” (ECF No. 24 at 3, 6-7.)

5

Case 2:16-cv-02043-TLP-cgc Document 82

Filed 05/21/18 Page 6 of 12

PagelD 2903

The R&R RECOMMENDS that Defendant’s Motion be GRANTED and: (1) Plaintiffs
R. Civ. P. 12(b)(6) as barred by the
Title VII and ADEA claims be DISMISSED under Fed.
could have been raised in Plaintiffs previous
doctrine of res judicata because they were or
v. Jacob J. Lew, No. 2:ll-cv-02562-JDT-cgc (the “2011 case )2
action, Anthony T. Grose, Sr.
(ECF No. 74 at PagelD 2837); and (2) that Plaintiff s ADA claim be DISMISSED as a matter of
law because

“[t]he Rehabilitation Act, not the [ADA], constitutes the exclusive remedy for a

federal employee alleging disability-

based discrimination[,]” Jones v. Potter, 488 F.3d 397, 403

2007) (citing 42 U.S.C. § 12111 (5)(B)(i) (id. at PagelD 2839); and (3) that Plaintiffs
(6th Cir.
Rehabilitation Act claim be DISMISSED under Fed. R. Civ. P. 56 because Plaintiff has failed to
is disabled under the Rehabilitation Act. (Id. at PagelD
make a prima facie showing that he is
2841.)
the grounds that: (1) he did not consent to
The Court discerns that Plaintiff objects on
“the Magistrate Judges to handle the entire case, and rule on the non-dspositive motion[;]” (2)
the Magistrate judge misapplied the doctrine of res judicata; (3) the Magistrate Judge ened in
denying his request for leave to file a sur-reply to

Defendant’s Motion and his request for an

evidentiary hearing; (4) the Magistrate Judge erred in recommending dismissal of his ADA
claim; and (5) the Magistrate Judge failed in finding that he failed to demonstrate that a genuine
issue of material fact exists as

to whether he is disabled under the Rehabilitation Act. (ECF No.

78.)
I.

Findings of Fact
Plaintiffs objections to the Magistrate Court’s Proposed Findings of Fact are irrelevant,

as they object to findings that were not made, or Plaintiff attempts to introduce evidence that was

2 The case was originally styted as Anthony T. Grose, Sr., v. Timothy F. Geithner, et al.
6

Case 2:16-cv-02043-TLP-cgc Document 82 Filed 05/21/18 Page 7 of 12

PagelD 2904

not before the Magistrate Court. For example, Plaintiff objects to the R&R because he claims it
states that Dr. Norton recommended that Plaintiff return to him for computer spectacles when Dr.
Allen was the one who made the recommendation. (Id. at PagelD 2856.1 Contrary to Plaintiffs
assertion, the R&R accurately states that Dr. Allen “stated that computer glasses . . . may be of
help.” (ECF No. 74 at PagelD 2833.) Plaintiff fails to create a genuine issue of material fact
regarding the Magistrate Court’s Proposed Findings of Fact based on the Court’s review of the
record. The Court accordingly ADOPTS the Proposed Findings of Fact.
The Court first addresses what it will call Plaintiffs “procedural objections,” (objections
(1), (3), supra) and then addresses the issues concerning res judicita, the ADA, and the
Rehabilitation Act.
II.

Plaintiffs Procedural Objections Are Unwarranted
Plaintiffs objections about the Magistrate Judge issuing the R&R and denying his

requests for leave to file a sur-reply and for an evidentiary hearing are not well-taken. The
Magistrate Judge did not, as he argues, “handle the entire case and rule on the non-dispositive
motion.” The Magistrate Judge managed this pro se non-pnsoner Plaintiffs case under the
authority granted by the Federal Magistrates Act, 28 U.S.C. §§ 636-639, and the Western
District of Tennessee Administrative Order 2013-05.

After the paities briefed Defendant’s

Motion, the Magistrate Judge issued proposed findings and recommendations in the R&R under
28 U.S.C. § 636(b)(1)(B).

However, the Magistrate Court did net “rule” on Defendant s

Motion.3 This Court is “ruling” now.
Under Local Rule 7.2(d), the Court may order a hearing on a motion if it determines that
one would be helpful or necessary. LR 7.2. Here, neither the Magistrate Court nor this Court
3 See Report and Recommendation, Black’s Law Dictionary, (10ta ed. 2014) ( A written
statement of findings and a proposed courts of action for consideration by another[.] )
7

- Case 2:16-cv-02043-TLP-cgc Document 82 Filed 05/21/18 Page 8 of 12

PagelD 2905

determined that a hearing on Defendant’s Motion is necessary, and this is not grounds for
rejecting the R&R. Additionally, the Local Rules for the Western Distict of Tennessee do not
provide the right to file sur-replies to Rule 12 or Rule 56 motions. See id.; Cadence Bank, N.A.
v. LattingRd. Partners, LLC, 699 F. Supp. 2d 1041, 1042 (W.D. Term. 2010).
The Court has reviewed Plaintiffs Motion to File a Sur-Reply (ECF No. 71) and agrees
with the Magistrate Court that it merely reiterates Plaintiff s arguments in his previous filings in
response to Defendant’s Motion. For these reasons, Plaintiffs procedural arguments are not
convincing. Thus, this Court will ADOPT the R&R in this respect.
III.

Plaintiffs Claims, Other than His Vision Disability Claims, Are Barred Under res
judicata
Plaintiff claims that the Magistrate Court erred “on a pure question of law and on the

grounds contrary law” regarding the application of the doctrine of res judicata. (ECF No. 78 at
PagelD 2859 (internal quotation marks omitted).)
Under the doctrine of ms judicata, “‘a final judgment on the me:its bars further claims by
parties or their privies based on the same cause of action.” Bragg v. Flint Bd. ofEduc., 570 F.3d
775, 776 (6th Cir. 2009) (quoting Montana v. U.S., 440 U.S. 147, 153 (1979) (internal citations
omitted)). The following elements must be present for res judicata to aoply:
(1) a final decision on the merits by a court of competent. urisdiction; (2) a
subsequent action between the same parties or their “privies;” 3) an issue in the
subsequent action which was litigated or which should have be en litigated in the
prior action; and (4) an identity of the causes of action.
Id. (quoting Bittinger v. Tecumseh Products Co., 123 F.3d 877, 880 (6lh Cir. 1997)).
A de novo review of the Magistrate Court’s detailed comparison of the pleadings m
Plaintiffs 2011 case and the present case shows that the elements of res judicata are satisfied,
with the exception of Plaintiff s vision disability claim (Counts II and V). Both actions involve

8

- Case 2:16-cv-02043-TLP-cgc Document 82 Filed 05/21/18 Page 9 of 12

PagelD 2906

identical parties: Plaintiff and the acting Secretary of the Treasury. Plaintiffs current action
involves discrimination claims against his former employer which were, or could have been,
raised in his 2011 case.

Many of the very same discriminatory acts alleged in the 2011

Complaint are alleged in the present case. Res judicata bars not only re-litigating claims or
issues that were actually litigated, but also those which could have been litigated in the prior
action. Bragg, 570 F.3d at 111 (citation omitted). Finally, this Court previously addressed the
merits of Plaintiffs discrimination claims, rendered summary judgment against him, and
dismissed his case. The Sixth Circuit affirmed this Court’s Judgment on September 21, 2016.
Plaintiff argues that in order for res judicata to apply, “the first cause of action must be
dismissed ‘on the merits.’” (ECF No. 78 at PagelD 2859.) Plaintiff claims that this Court’s
grant of summary judgment in favor of the Defendant Secretary of Treasury, and the Sixth
“on
Circuit’s affirmation of the Court’s Judgment in the 2011 case, do not c onstitute a judgment
the merits” under res judicata. As the Magistrate Court noted, a grant of summary judgment is
considered an adjudication on the merits, so Plaintiffs argument fails. Ohio Natl Life Ins. Co.
v. United States, 922 F.2d 320, 325 (6th Cir. 1990).4 Plaintiffs other objections-like his
suggestion that the 2011 Case was limited to a claim of discrimination for a failure to promote,
or that the parties were not the same because there are different secretaries of the Treasury
named in each suit—are without merit. The Magistrate Judge rightly applied the doctrine of res
judicata by identifying the same factual and legal allegations in the 2011 Case and this case and
RECOMMENDED that the Court GRANT Defendant’s Motion and DISMISS Plaintiffs Title

4 The federal law on res judicata is analogous to the Tennessee authority the Magistrate Court
cites in the R&R. See Harrogate Corp. v. Systems Sales Corp., 915 S.W.2d 812 816 (Tenn Ct.
App. 1995) (collecting cases) (stating that while denial of summary judgment is not adjudication
on the merits, granting of summary judgment is deemed conclusive of all issues reached and
decided by summary judgment).
9

Filed 05/21/18 Page 10 of 12

-Case 2:16-cv-02043-TLP-cgc Document 82

PagelD 2907

VII and ADEA claims as barred by res judicata. The Court ADOPTS the R&R, and Plaintiffs
Title VII and ADEA claims are DISMISSED WITH PREJUDICE.
IV.

Plaintiffs ADA and Rehabilitation Act Claims Fail Under Rue 56
a matter of law.
The Court also ADOPTS the R&R that Plaintiffs ADA claim fails as

Plaintiffs objection that the ADA and
regarding nondiscrimination is not a
Rehabilitation Act is

the Rehabilitation Act contain the same standards

proper objection to the Magistrate Court’s finding that the

Plaintiffs exclusive remedy as a former federal employee. See Jones, 488

the United Stites from definition of
F.3d at 403; 42 U.S.C. § 1211 l(5)(B)(i) (excluding
employers covered by ADA).

Therefore, Plaintiffs ADA claim is DISMISSED WITH

PREJUDICE.
Plaintiff alleges
him on the

that Defendant violated the Rehabilitation Act by discriminating against

basis of his alleged vision disability and denying his requesl for allegedly reasonable

accommodations.
discrimination, so

(ECF No. 24 at 8-9.)

Plaintiff fails to present direct evidence of

the Magistrate Court correctly applied the three-step burden-shifting test from

McDonnell Douglas Corp. v.

Green, 411 U.S. 792 (1973) and Texas Dcp’t of Community Affairs

v. Burdine, 450 U.S. 248 (1981). Plaintiff bears the initial burden of establishing a prima facie
“To do so, a plaintiff must establish each of the
case of discrimination. Jones, 488 F.3d at 404.
(1) that he is disabled, (2) that he is otherwise qualified for the job, with
following five elements:
or without reasonable accommodation, (3) that he suffered an adverse employment action, (4)
that his employer knew or had reason to

know of his disability, ar d (5) that, following the

placed by a nondisabled person or his position
adverse employment action, either he was re
remained open.” Id (citations omitted). If the employee meets this prima facie burden, the
burden shifts to the employer to articulate a legitimate, nondiscriminatory reason for the

10

Case 2:16-cv-02043-TLP-cgc Document 82

challenged em

Filed 05/21/18 Page 11 of 12

PagelD 2908

ployment decision, id. (citation omitted), and if the employer meets that burden,

then it once again falls on the

plaintiff to prove by a preponderance cf the evidence that the

employer’s proffered reason was pretextual. Id. A plaintiff can defeat summary judgment “only
if his evidence is sufficient to create a

genuine dispute at each stage of :he McDonnell Douglas

inquiry.” Id. (internal quotation marks and citation omitted).
to demonstrate that a genuine issue of
The R&R RECOMMENDS that Plaintiff fails
whether he is disabled under the Rehabilitation Act. Plaintiff disputes
material fact exits as to
and referring to evidence that was not before the
this by making conclusory statements
The Court ieclines to consider this
Magistrate Court when considering Defendant ’s Motion.
VnUed Siuies, 200 F.3d 895, 902 n.l (6th Cir. 2000).

The Court has

evidence. Murr v.
performed a de novo review

of the R&R and the record to find that the evidence shows that

correctable by the
Plaintiff’s vision impairments during his employment with Defendan, were
proper use of bifocal eyeglasses. (See ECF Nos. 45-12

, 45-14, 45-19, 45-20 at 132-34, 45-27.)

As to whether Plaintiff is disabled, the Court

ADOPTS the Magistrate Court’s

“disabled” is “restricted to those
recommendation. The Magistrate Court found that the term
not mitigated by corrective measures,” quoling the Supreme Court’s
are
whose impairments
471, 487 (1999). The Magistrate Court
opinion in Sutton v. United Air Lines, Inc., 527 U.S.
definition, Plaintiff failed to establish a prima facie showing that he is
found that based on this
could have cured his vision impairment with 20/20
disabled because the record indicates that he
acuity if he used bifocal eyeglasses or sought computer

eyeglasses to help him with vision in the

intermediate range. (See ECF No. 74 at PagelD 2841.)
While the Magistrate Court’s ultimate conclusion is sound, this Court will provide some
further explanation. Almost ten years

after Sutton, Congress amended the ADA to overturn

11

Filed 05/21/18
'Case 2:16-cv-02043-TLP-cgc Document 82

certain aspects of the Snpreme Court’s ruling in that case
No. 110-325. Following Congress

’s actions, the curre

is “disabled” within the meaning of the ADA and the

Page 12 of 12

PagelD 2909

and other ADA decisions, See Pub. L.

nt determination cf whether an

individual

Rehabilitation Acl is to be made “without

42 U.S.C. §12102(4)(E)(i).
measures.”
effects
of
mitigating
regard to the ameliorative
factor “[t]he ameliorative effects of the
determination “disability” still must
However, a
42 U.S.C. §12102(4)(E)(ii)contact lenses.
of ordinary eyeglasses or
mitigating measures
vision
that “disability” doe:; not encompass
Court’s ruling in Sutton
Thus, the Supreme
is still an accurate
contact enses is
table with ordinary eyeglasses or
impairments that are correc
299 F. App’x 488, 494
Warner Cable, 7nc.,No. 07-M265
statement of the law. Verhoffv. Time
. 10-10837, 2010 WL 1957214,
Michigan, No
n. 5 (6th Cir. Oct. 24, 2008) (unreported); (Nali v.
in the R&R
ADOPTS the conclusion m
n,l (E.D. Mich. May 13, 2010). Thus, the Court
at *1
, as the conclusion is consistent
regarding Plaintiffs disability claim under the Rehabilitation Act
under the current state of the law.

The Court GRANTS Defendant’s Motion as to that claim, and
of material fact to the evidence as to whether
finds that Plaintiff fails to present a genuine issue
rt DISMISSES Plaintiffs Rehabilitation Act Claim WITH
he is disabled. Accordingly, the Cou
PREJUDICE.
rONCLUSIQM
and Defenc ant’s Motion to Dismiss or,
The Report and Recommendation is ADOPTED
is GRANTED. Plaintiffs claims are
in the Alternative, Motion for Summary Judgment is
A Judgment will follow entry of this Order.
DISMISSED WITH PREJUDICE.
SO ORDERED, this 21st day of May, 2018.
s/ Thomas L. Parker
THOMAS L. PARKER
UNITED STATES DISTRICT JUDGE

\

12
\

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 1 of 16

PagelD 2827

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION

ANTHONY T. GROSE, SR.
Plaintiff,
v.

Case 2:16-cv-02043-SHL-cgc

JACOB J. LEW, JR., Secretary,
Department of the Treasury,
Defendant.
REPORT AND RECOMMENDATION ON
DEFENDANT’S MOTION TO DISMISS OR, IN THE ALTERNATIVE,
MOTION FOR SUMMARY JUDGMENT
Before the Court is Defendant Jacob J. Lew’s Motion to Dismiss or, in the Alternative,
Motion for Summary Judgment. (Docket Entry “D.E.” #59). The instant motion has been
referred for Report and Recommendation. i

For the reasons set forth herein, it is

RECOMMENDED that Defendant’s Motion for Summary Judgment be GRANTED.2

1 Error! Main Document Only.The instant case has been referred to the United States
Magistrate Judge by Administrative Order 13-05 pursuant to the Federal Magistrates Act, 28
U.S.C. §§ 631-639. All pretrial matters within the Magistrate Judge’s jurisdiction are referred
pursuant to 28 U.S.C. § 636(b)(1)(A) for determination, and all other pretrial matters are referred
pursuant to 28 U.S.C. § 636(b)(l)(B)-(C) for report and recommendation.
2 Plaintiff additionally filed a “Leave-of-Court Motion” to File a Sur-Reply (D.E. #71) to
Defendant’s Response to his Second Motion to Strike (D.E. #68) and to Defendant’s Motion to
Dismiss or, in the Alternative, Motion for Summary Judgment (D.E. #45). The Court reviewed
Plaintiff s filing, which lists the filings Plaintiff has already made with the Court and reiterates
Plaintiff s arguments therein, and finds no grounds for the sur-reply to be granted. Accordingly,
Plaintiffs Leave of Court Motion is DENIED.
1

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 2 of 16

I.

PagelD 2828

Introduction

On January 19, 2016, Plaintiff filed his pro se Complaint in this Court. (D.E. #1). On
May 31, 2016, after obtaining leave of court, Plaintiff filed his pro se Amended Complaint.
(D.E. #24). Plaintiffs Amended Complaint alleges violations of Title VII of the Civil Rights
Act of 1964, 42 U.S.C. § 2000e et seq. (“Title VII”), the Age Discrimination in Employment Act
of 1967, 29 U.S.C. § 621 et seq. (“ADEA”), Sections 501 and 504 the Rehabilitation Act of
1973, 29 U.S.C. § 701, et seq. & § 791 et seq. (“Rehabilitation Act”), and the Americans with
Disabilities Act of 1990, 42 U.S.C. § 12101, et seq. (“ADA”). Plaintiff alleges that Defendant,
his former employer, discriminated against him on the basis of disability (vision) (Counts II &
V), age (Count III), gender, race, and color (Count IV). (Id.

13, 32).

He further alleges that Defendant retaliated against him in violation of Title VII, 42 U.S.C.
§ 2000e-16(a), for taking part in prior Equal Employment Opportunity (“EEO”) activity (Count
I) on the following instances: (1) on August 16, 2006, he was placed on an employment
improvement plan (“EIP”); (2) on June 22, 2007, he received a lower annual performance
appraisal for the period ending May 31, 2007; (3) on July 31, 2007, management denied his
request for reconsideration of an accommodation request; (4) on October 3, 2007, management
denied his subsequent request for reconsideration of an accommodation; and, (5) on August 3,
2007, he was subjected to a “humiliating and degrading” training plan. (Am. Compl.

5, 25-

27).
II.

Proposed Findings of Fact

Plaintiff worked as a seasonal Customer Service Representative during the tax season at
the Internal Revenue Service (“IRS”) from 1999 until 2007. (Plaintiffs Deposition (“Pl.’s Dep.”

2

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 3 of 16

PagelD 2829

at 18:14-23, 31:15-24; Mary Banks Deposition (“Banks Dep.”) at 7:17-18). The branch manager
was Teresa Webb-Patton, and Plaintiffs team manager was Mary Banks. (Pi’s. Dep. at 31:2-7;
Def.’s Exh. 6: Performance Appraisal 2004-2005 at PagelD 275). From 2006 until 2007, Banks
remembers “at least” two African American males on the team. (Banks Dep. at 8:1-8).
In Plaintiffs July 1, 2004 to June 30, 2005 performance appraisal, Plaintiff met or
exceeded all of the criteria, was given an average Critical Job Elements (“CJE”) score of 3.2, and
he overall was rated “Fully Successful.” (Def.’s Exh. 6: Performance Appraisal 2004-2005 at
PagelD 275). In his July 1, 2005 to December 31, 2005 progress review, Banks advised Plaintiff
that he was failing in customer accuracy, accuracy of input, and timeliness/meeting deadlines.
(Def.’s Exh. 8: Progress Review 7/1/2005 — 12/31/2005). In his July 1, 2005 to May 31, 2006
performance appraisal, Plaintiff met all the criteria except that he failed compliance
communication, he was given an average CJE score of 2.8, and he overall was rated “Minimally
Successful.” (Def.’s Exh. 9: Performance Appraisal 2005-2006).
At some point in 2005 “before the evaluations,” Plaintiff advised Banks that he had been
having vision trouble affecting his performance. (Pl.’s Dep. at 203:1-205:24). Plaintiff does not
recall Banks responding to him about his vision trouble or offering to assist him but did tell him
to “go to the clinic” when he told her he had certain problems with his eyes or headaches. {Id. at
203:20-204:9). Plaintiff would also initiate his own visits to the clinic. (204:10-205:24).
On August 3, 2006, Banks provided Plaintiff with his EIP. (Def.’s Exh. 10: EIP). In the
EIP memorandum, Banks stated that Plaintiffs 2005-2006 progress review was “not indicative
of [his] performance” in the failing areas and that he was “informed during the mid-year of the
decrease” and “some improvements were made.” {Id.) Banks suggested further reliance on

3

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 4 of 16

PagelD 2830

checklists and tools and insured that she and the “lead” would work with him to improve his
performance in the failing areas. (Id.) In Plaintiffs performance appraisal from June 1, 2006 to
May 31, 2007, Banks gave Plaintiff a failing rating on customer accuracy, compliance
communication, and accuracy of input, an average CJE score of 2.4, and an overall rating of
“Minimally Successful.” (Def.’s Exh. 11: 2006-2007 Performance Appraisal at PagelD 290).
On June 25, 2007, Plaintiff obtained a note from Dr. Leroy Norton, Jr., O.D., who saw him
in his office for an eye examination related to eye strain. (Def.’s Exh. 12: Letter from Dr.
Norton).

Dr. Norton recommended that Plaintiffs employer approve a request for two flat

screen monitors and one document magnification system to relieve eye strain, that Plaintiff wear
bifocal lenses full time, and that he return to the clinic in one year. (Id.) On July 5, 2007,
Plaintiff submitted a Reasonable Accommodation Request stating that he had a disability of “low
vision.” (Def.’s Exh. 13: Reasonable Accommodation Request at PagelD 297). He described
his disability as “difficulty experience^] in reading computer screens and paper work.
Prescribed bifocal lenses being wom[ ].
documents.”

(Id.)

Eye strain while using computer and reading

Plaintiff requested two large flat screen monitors, one document

magnification system, and any other systems that would enhance “low vision readability.” (Id.)
Plaintiff attached Dr. Norton’s letter to the Reasonable Accommodation Request. (Id. at PagelD

300).
On July 11, 2007, Plaintiff requested Banks provide him two days of on-the-job training
with Lead Sherri Thompson, with eight hours of review and observation while the lead is on the
telephone and eight hours of observation while Plaintiff is on the telephone, to enhance specific
research tools.

(Def.’s Exh. 14: Routing Slip dated July 11, 2007; Def.’s Exh. 15: Banks

4

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 5 of 16

Memorandum).

PagelD 2831

Banks granted Plaintiffs request in a memorandum dated July 12, 2007.

(Def.’s Exh. 15: Banks Memo).

On July 26, 2007, Plaintiff informed Banks that he had

completed two hours with the lead on the telephone and him observing and two hours with him
on the telephone with the lead observing. (Def.’s Exh. 16: Routing Slip dated July 26, 2017).
Plaintiff advised that he found the training to be “very much informative and very useful” and
requested further training not strictly on the telephone but also “paper observation and training.”
(Id.)
On July 31, 2007, Jacquelyne Yarbrough, Department Manager, Memphis Accounts
Management, notified Plaintiff in a memorandum that his accommodation requests of a “large
flat-screen monitor, a document magnification system and any other system that would enhance
low vision readability” was denied because Plaintiff was found to have no substantial limitations
of a major life activity. (Def.’s Exh. 17: Yarbrough Denial Memo). Yarbrough further stated
that the medical assessment dated July 24, 2007 and prepared by Federal Occupational Health
(“FOH”) stated that “the employee’s physician recommended that [Plaintiff] return to the
optometrist and request spectacles that will allow focus in the intermediate [field].” (Id. at
PagelD 306, 308) The FOH physician further stated that Plaintiff “may wish to inquire from
computer specialists about software that will enlarge specific text.” (Id. at PagelD 308). The
FOH physician stated that he spoke with Dr. Norton states that Dr. Norton only made his specific
requests “based on [Plaintiffs] request that such equipment was available.” (Id.; Def.’s Exh. 18:
Administrative Hearing Transcript, Testimony of Dr. James Allen, July 29, 2010, at 120:3-12,
132:14-134:1).

5

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 6 of 16

PagelD 2832

On August 3, 2007, Yarbrough sent a memorandum to Plaintiff on the subject of
“Training” confirming an agreement reached in a meeting held on August 1, 2007. (Def.’s Exh.
19: Training Letter dated 8/3/2007). Yarbrough advised Plaintiff of three days of training to
assist him in improving his job knowledge technical skill to in turn improve his overall
performance to an acceptable level. (Id.) The dates of the training were set on August 3, August
7, and August 8, 2007. (Id) Plaintiff was advised that his manager would “conduct evaluative
reviews” of his work for thirty days to monitor/assess his “performance for improvement.” (Id.)
He was advised that, if at that time he was performing at an acceptable level in all aspects of his
job, he “may be allowed to work overtime.” (Id.) He was further advised that, if he was not
performing at an acceptable level, he would “be issued a formal letter advising” him of such.
(Id.) He was instructed to “work cooperatively” with his manager to ensure his success. (Id.)
Yarbrough testified the extent of her understanding of what Plaintiff wanted from training
and stated that she asked Plaintiff for specifics but was not provided any that she was not sure
about precisely what he needed. (Def.’s Exh. 20: Yarbrough Deposition at 39:8-14, 40:8-10).
Thus, Yarbrough suggested that they perform an assessment because Plaintiff did not provide
any further information. (Id. at 41: 4-5). The training was held on August 3, 6, 7, and 9, 2007.
(Def.’s Exh. 21: Additional Coaching Memorandum dated October 10, 2007; Def.’s Exh. 7:
Banks Aff. At #14).
On August 10, 2007, Plaintiff requested reconsideration of the denial of his
accommodation request. (Def.’s Exh. 22: Routing Slip dated 8/10/2007). At that time, he did
not provide any additional documentation and only requested that Part II “Deciding Official
Documentation” be completed. (Id.) Plaintiff then took eight weeks of Family Medical Leave

6

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 7 of 16

PagelD 2833

Act (“FMLA”) leave. (Def.’s Exh. 4: Pl.’s Dep. at 85:23-86:24). By letter dated October 3,
2007, Carolyn Jackson denied Plaintiffs request for reconsideration because he failed to submit
“any additional medical documentation to be considered.”

(Def.’s Exh. 23: Denial for

Reconsideration of Reasonable Accommodation Request).
On or about October 9, 2007, Plaintiff submitted a second request for reconsideration.
(Exh. 24:

Second Reasonable Accommodation Request).

Plaintiff attached medical

documentation of Dr. Ira N. B. Davis, Jr. diagnosing him with “computer vision syndrome
(CVS)” with the impacts manifest in “discomfort both visually and physically” and “inaccuracies
resulting in errors in performance of his job.” {Id. at PagelD 352). Dr. Davis stated that this is a
“chronic condition as long as his job consists of large amounts of computer use.” {Id.) Dr.
Davis also requested “large flat screen monitors,” a “document magnification system,” and any
other systems that would enhance low vision readability. {Id. at PagelD 350).
On October 12, 2007, Plaintiff resigned from his employment. (Def.’s Exh. 26: Plaintiffs
Letter dated November 5, 2007 at PagelD 359). On October 17, 2007, Dr. Allen reviewed
Plaintiffs second accommodation request, including Dr. Davis’s medical documentation, and
found that Plaintiff “has normal 20/20 visual acuity” when wearing bifocal spectacles and that
“the flat screen monitor and document magnification are not necessary.”

(Def.’s Exh. 25:

Second Denial of Reasonable Accommodation, at PagelD 357). Dr. Allen stated that computer
glasses with focal distances of 25 to 30 inches, depending on the distance of the monitor to
Plaintiffs seat, may be of help, as may an ergonomic survey of Plaintiffs office to ensure his
computer equipment is all within distances that are ergonomically correct. {Id.) Dr. Allen also
again concluded that Plaintiff did not have any substantial limitations of a major life activity.

7

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 8 of 16

PagelD 2834

(Id.) Plaintiff was sent Dr. Allen’s conclusions by letter dated November 14, 2007. (Id. at
PagelD 356).
III.

Proposed Conclusions of Law
a. Motion to Dismiss

Rule 12(b)(6) of the Federal Rules of Civil Procedure provides that a claim may be
dismissed for failure to state a claim upon which relief may be granted. Fed. R. Civ. P. 12(b)(6).
In addressing a motion to dismiss under Rule 12(b)(6), the court must construe the complaint in
the light most favorable to plaintiff and accept all well-pled factual allegations as true. League of
United Latin Am. Citizens v. Bredesen, 500 F.3d 523, 527 (6th Cir. 2007). A plaintiff can
support a claim “by showing any set of facts consistent with the allegations in the complaint.”
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 563 (2007). This standard requires more than
bare assertions of legal conclusions. Bovee v. Coopers & Lybrand C.P.A., 272 F.3d 356, 361
(6th Cir. 2001). “[A] formulaic recitation of the elements of a cause of action will not do.”
Twombly, 550 U.S. at 555. Any claim for relief must contain “a short and plain statement of the
claim showing that the pleader is entitled to relief.” Erickson v. Pardus, 551 U.S. 89, 93 (2007)
(quoting Fed. R. Civ. P. 8(a)(2)). “Specific facts are not necessary; the statement need only ‘give
the defendant fair notice of what the . . . .claim is and the grounds upon which it rests.” Id.
(citing Twombly, 550 U.S. at 555).
Nonetheless, a complaint must contain sufficient facts “state a claim to relief that is
plausible on its face’” to survive a motion to dismiss.

Twombly, 550 U.S. at 570.

“The

plausibility standard is not akin to a ‘probability requirement,’ but it asks for more than a sheer
possibility that defendant has acted unlawfully.” Ashcroft v. Iqbal, 556 US. 662, 678 (2009)

8

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 9 of 16

PagelD 2835

(citing Twombly, 550 U.S. at 556). “Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice.” Id. (citing Twombly, 550 U.S. at 555).
A plaintiff with no facts and “armed with nothing more than conclusions” cannot “unlock the
doors of discovery.” Id. at 678-79.
Defendant asserts that all of Plaintiff s claims except for those in Counts II and V alleging
disability on the basis of his vision are barred under the doctrine of res judicata because they
were or could have been raised in Plaintiffs previous case, Anthony T. Grose, Sr. v. Jacob J.
Lew, No. 2:1 l-cv-02562-JDT-cgc. “Under the doctrine of res judicata, a judgment on the merits
in a prior suit bars a second suit involving the same parties or their privies based on the same
cause of action.”

Parklane Hosiery Co., Inc. v. Shore, 439 U.S. 322, 326 n.5 (1979).

It

“prevents litigation of all grounds for, or defenses to, recovery that were previously available to
the parties, regardless of whether they were asserted or determined in the prior proceeding.”
Brown v. Felsen, 442 U.S. 127, 131 (1979) (citing Chicot County Drainage Dist. v. Baxter State
Bank, 308 U.S. 371, 378 (1940)). Four elements must be present for res judicata to apply: (1) the
underlying judgment must have been rendered by a court of competent jurisdiction; (2) the same
parties were involved in both suits; (3) the same cause of action was involved in both suits; and,
(4) the underlying judgment was on the merits. Hutcherson v. Lauderdale County, Tennessee,
326 F.3d 747, 758 (6th Cir. 2003) (quoting Collins v. Greene Cty. Bank, 916 S.W.2d 914, 915
(Tenn. Ct. App. 1995)).
In Plaintiffs 2011 case, he alleged that, in or about May 2007, he began to receive
negative evaluations and repeated harassment from Banks as a result of his participation in a
2005 EEOC investigation that involved another employee’s complaint of sexual harassment.

9

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 10 of 16

PagelD 2836

(2011 Am. Compl. lfl| 16-18). Plaintiff alleged that he “could not give an answer to assist
Management’s point of view or the EEO Representative’s request but did [in] fact speak on
behalf of the fellow employee in question.” {Id. 1 17). Plaintiff alleged that, subsequently, he
began to receive negative evaluations and repeated harassment from Banks, which led him to file
his own EEO charges, EEODFS-06-0847-F and EEODFS-07-1159-M. {Id. U 18; see also Def.’s
Exh. 1: EEO Charge EEODFS-06-0847-F; Def.’s Exh. 2: EEO Charge EEO-DFS-07-1159-M).
He alleged that also was placed on an employment improvement plan, received “degrading
humiliating training,” and was the subject of “words that [were] unwarranted.” (2011 Am.
Compl. ][ 24). Plaintiff alleged that, in or about August 2007, he requested reconsideration of a
prior reasonable accommodation request from Banks and Yarbrough, which was denied. {Id.
21). Plaintiff alleged that he was “being harassed so much” that his health was negatively
affected and that he left his employment under what he deemed a “constructive discharge.” {Id.
1fll 21, 25). Plaintiff raised claims of discrimination on account of race, age, and disability under
Title VII, ADEA, and the Rehabilitation Act. {Id. ffl[ 26-40).
As to whether res judicata bars the instant claims with the exception of Plaintiffs claims
that he was discriminated against on the basis of his disability (vision), this Court entered its
Order Adopting Report and Recommendation, Denying Plaintiffs Motion for Summary
Judgment, and Granting Defendant’s Motion for Summary Judgment on February 26, 2015.
This Court entered its Judgement on March 3, 2015. Plaintiff appealed to the United States
Court of Appeals for the Sixth Circuit, which affirmed the District Court’s judgment on
September 21, 2016. Additionally, Plaintiff Anthony T. Grose Sr. and Defendant, the Secretary
of the Department of the Treasury, were the parties in both suits.

10

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 11 of 16

PagelD 2837

With respect to whether both suits involve the same cause of action, “the principal test for
determining whether the causes of action are the same is whether the primary right and duty or
wrong are the same in each case.” Gerber v. Holcomb, 219 S.W.3d 914, 918 (Term. Ct. App.
Dec. 27, 2006) (quoting Hutcheson v. Tenn. Valley Auth., 604 F. Supp. 543, 550 (M.D. Term.
1985)). Plaintiff alleges in both suits that he was retaliated against for participating in EEO
activity relating to another employee. (2011 Am. Compl. ^ 16-18, 21, 24; Am. Compl.

15-

24). Plaintiff further alleges in both suits that he was discriminated against on the basis of his
race, gender, and age. (See Anthony T. Grose, Sr. v. Jacob J. Lew, No. 15-5357, at 1 (6th Cir.
Sept. 21, 2016); Am. Compl.
suit.

5, 13). Thus, Plaintiff could have raised these claims in his prior

Finally, the previous suit was resolved by summary judgment, which is considered

adjudication on the merits for purposes of res judicata. Harrogate Corp. v. Systems Sales Corp.,
915 S.W.2d 812, 816 (Tenn. Ct. App. Sept. 20, 1995) (citing Galbreath v. Harris, 811 S.W.2d
88, 91 (Tenn. 1990)) (“[T]he granting of summary judgment is deemed conclusive of all issues
reached and decided by such summary judgment.”). Accordingly, it is RECOMMENDED that
Plaintiffs Title VII and ADEA claims be GRANTED under Rule 12(b)(6) as barred by the
doctrine of res judicata.
b. Rule 56 of the Federal Rules of Civil Procedure
Summary judgment is proper “if the pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any, show that there is no genuine issue as to
any material fact and that the moving party is entitled to a judgment as a matter of law.” Fed. R.
Civ. P. 56(c). Although hearsay evidence may not be considered on a motion for summary
judgment, Jacklyn v. Schering-Plough Healthcare Prods. Sales Corp., 176 F.3d 921, 927 (6th

11

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 12 of 16

PagelD 2838

Cir. 1999), evidentiary materials presented to avoid summary judgment otherwise need not be in
a form that would be admissible at trial. Celotex Corp. v. Catrett, All U.S. 317, 324 (1986);
Thaddeus-X v. Blatter, 175 F.3d 378, 400 (6th Cir. 1999).

The evidence and justifiable

inferences based on facts must be viewed in a light most favorable to the nonmoving party.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986); Wade v. Knoxville
Utilities Bd, 259 F.3d 452, 460 (6th Cir. 2001).
Summary judgment may be granted “against a party who fails to make a showing
sufficient to establish the existence of an element essential to that party’s case, and on which that
party will bear the burden of proof at trial.” Celotex, All U.S. at 322. The moving party can
prove the absence of a genuine issue of material fact by showing that there is a lack of evidence
to support the nonmoving party’s case. Id. at 325. This may be accomplished by submitting
affirmative evidence negating an essential element of the nonmoving party’s claim, or by
attacking the nonmoving party’s evidence to show why it does not support a judgment for the
nonmoving party. 10a Charles A. Wright et al., Federal Practice and Procedure § 2727 (2d ed.
1998).
Once a properly supported motion for summary judgment has been made, the “adverse
party may not rest upon the mere allegations or denials of [its] pleading, but . . . must set forth
specific facts showing that there is a genuine issue for trial.” Fed. R. Civ. P. 56(e). A genuine
issue for trial exists if the evidence would permit a reasonable jury to return a verdict for the
nonmoving party. Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986).

To avoid

summary judgment, the nonmoving party “must do more than simply show that there is some

12

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 13 of 16

PagelD 2839

metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986).
Plaintiff alleges disability on the basis of vision in violation of both Sections 501 and 504
of the Rehabilitation Act and the ADA. As an initial matter, it is undisputed that Plaintiff was
employed by the IRS. Under federal law, “[t]he Rehabilitation Act, not the [ADA], constitutes
the exclusive remedy for a federal employee alleging disability-based discrimination.” Jones v.
Potter, 488 F. 3d 397, 403 (6th Cir. 2007) (see 42 U.S.C. § 1211 l(5)(B)(i) (defining employers
covered by the ADA, but excluding the United States).

Thus, it is RECOMMENDED that

Plaintiffs ADA claim fails as a matter of law.
As to Plaintiffs Rehabilitation Act claims, absent direct evidence of discrimination,
courts apply the three-step burden-shifting framework originally articulated in McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973), and later refined in Texas Dep’t of Community
Affairs v. Burdine, 450 U.S. 248 (1981). The initial burden rests with the plaintiff to establish a
prima facie case of discrimination. Jones, 488 F.3d at 404 (citing Monette, 90 F.3d at 1186). To
establish a prima facie case under the Rehabilitation Act, a plaintiff must establish each of the
following five elements: (1) that he is disabled; (2) that he is otherwise qualified for the job; (3)
that he suffered an adverse employment action; (4) that his employer knew or had reason to
know of his disability; and, (5) that, following the adverse employment action, either he was
replaced by a nondisabled person or his position remained open. Jones, 488 F.3d at 404 (citing
Timm v. Wright State Univ., 375 F.3d 418, 423 (6th Cir. 2004).
If the plaintiff establishes a prima facie case, the burden shifts to the employer to
articulate a legitimate, nondiscriminatory reason for the challenged employment decision. Jones,

13

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 14 of 16

PagelD 2840

499 F.3d at 404 (citing Burdine, 450 U.S. at 353). Should the employer carry this burden, then
the burden returns to the plaintiff to prove by a preponderance of the evidence that the
employer’s proffered reason was in fact a pretext designed to mask illegal discrimination. Id. A
plaintiff can defeat summary judgment only if his evidence is sufficient to “create a genuine
dispute at each stage of the McDonnell Douglas inquiry.” Jones, 499 F.3d at 404 (citing Macy v.
Hopkins Cty. Sch. Bd. ofEduc. 484 F.3d 357, 364 (6th Cir. 2007).
“Disability” is defined, with respect to an individual, as a “physical or mental impairment
that substantially limits one or more of the major life activities of such individual,” a “record of
such impairment,” or being “regarded as having such an impairment. . . .” 20 C.F.R. 1614.203;
20 C.F.R. § 1630.2(g). A substantial limitation must limit the “ability of the individual to
perform a major life activity as compared to most people in the general population.” 20 C.F.R.
1614.203; 20 C.F.R. § 1630.2(j). “An impairment need not prevent, or significantly or severely
restrict, the individual from performing a major life activity in order to be considered
substantially limiting.” Id. “The term ‘substantially limits’ shall be construed broadly in favor
of expansive coverage, to the maximum extent permitted” and is “not meant to be a demanding
standard,” although “not every impairment will constitute a disability within the meaning of this
section.”

Id.

“Major life activities” include, but are not limited to, seeing, reading,

communicating, interacting with, others, and working.

20 C.F.R. 1614.203; 20 C.F.R §

1630.2(i)(l)(i).
With respect to whether a genuine issue of material fact exists as to whether Plaintiff is
disabled under the Rehabilitation Act, the evidence shows that Dr. Norton, Dr. Allen, and Dr.
Davis all opined that, although Plaintiff had diagnosed vision impairments, they would have

14

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 15 of 16

PagelD 2841

been corrected by the proper use of bifocal eyeglasses. Dr. Allen further found that Plaintiff s
vision would be corrected to “normal 20/20 visual acuity when refracted at both near and far
distances.”
In considering vision impairments specifically, the United States Supreme Court
concluded that “the number of people with vision impairments alone is 100 million,” and “the
finding that 43 million individuals are disabled gives content to . . . the term ‘disability.’” Sutton
v. United Air Lines, Inc., 527 U.S. 471, 487 (1999). Thus, it reasoned that the term “disabled” is
“restricted to those whose impairments are not mitigated by corrective measures.” Id. The
record reflects that Plaintiffs impairment can be corrected by bifocal eyeglasses but contains no
evidence that Plaintiff obtained bifocal eyeglasses or utilized them in an attempt to correct his
vision impairments. The record also contains evidence that Plaintiff could have benefitted from
“computer glasses,” computer software to enlarge the text and ergonomic improvements in his
workplace. There is no evidence that Plaintiff requested or obtained any of these but instead
continued to request two flat-screen monitors and a document magnification system with no
justification as to why these would be more helpful for improving his vision. On the contrary,
the record reflects that Dr. Allen found them to be explicitly “not necessary” because his vision
could be corrected to normal 20/20 visual acuity with bifocal eyeglasses.
Accordingly, it is RECOMMENDED that Plaintiff fails to demonstrate that a genuine
issue of material fact exists as to whether he is disabled under the Rehabilitation Act. Thus, it is
RECOMMENDED that Plaintiff has failed to meet his prima facie burden, and that Plaintiffs
Rehabilitation Act claims must fail as a matter of law.

15

Case 2:16-cv-02043-TLP-cgc Document 74 Filed 02/27/18 Page 16 of 16

IV.

PagelD 2842

Conclusion

For the reasons set forth herein, it is RECOMMENDED that Defendant’s Motion to
Dismiss or, in the Alternative, Motion for Summary Judgment be GRANTED in that Plaintiffs
Title VII and ADEA claims be dismissed pursuant to Rule 12(b)(6) of the Federal Rules of Civil
Procedure and Plaintiffs ADA and Rehabilitation claims be dismissed pursuant to Rule 56 of the
Federal Rules of Civil Procedure.

DATED this 27th day of February, 2018.

s/ Charmiane G. Claxton
CHARMLANE G. CLAXTON
UNITED STATES MAGISTRATE JUDGE
ANY OBJECTIONS OR EXCEPTIONS TO THIS REPORT MUST BE FILED WITHIN
FOURTEEN (14) DAYS AFTER BEING SERVED WITH A COPY OF THE REPORT.
28 U.S.C. § 636(b)(1)(C). FAILURE TO FILE THEM WITHIN FOURTEEN (14) DAYS
MAY CONSTITUTE A WAIVER OF OBJECTIONS, EXCEPTIONS, AND ANY
FURTHER APPEAL.

16

